April 19, 2021
Honorable Scott S. Harris
Clerk
Supreme Court of the United States
One First Street, NE
Washington, DC 20543
Re: Box v. Planned Parenthood of Indiana and Kentucky, Inc., S. Ct. No. 20-1375
Dear Mr. Harris:
I am counsel for respondent in the above-captioned case. The petition for a writ of certiorari
in this case was filed on March 29, 2021 and was placed on the Court’s docket on April 1, 2021.
Respondent’s response to the petition is due on May 3, 2021.
Respondent respectfully requests, under Rule 30.4 of the Rules of this Court, an extension
of time within which to file a response to the petition for a writ of certiorari through and including
June 17, 2021. This is respondent’s first request for an extension of time. This extension is
requested due to the press of other matters, including counsel’s pre-existing professional
commitments, and to permit respondent adequate time to consider and, if necessary, respond to
any briefs of amici curiae filed on or before May 3, 2021.
Counsel for respondent has consulted with Indiana Solicitor General Thomas Fisher, who
is counsel of record for petitioners, and who has no objection to an extension of time through and
including June 2, 2021, but objects to any further extension.
Thank you for your consideration in this matter.
Sincerely,
/s/ Jennifer Sandman
Jennifer Sandman
Senior Director, Public Policy Litigation & Law
Planned Parenthood Federation of America
cc: Thomas M. Fisher, Counsel for Petitioners

